Final Audit Report No. AU99-001
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Selected Parts of the Legal Services of Northern Virginia's 1997 Grant Activity Report and Timekeeping System and its Compliance With Selected Regulations
APPENDIX:GranteeResponse
OTHER REPORTS
OIG HOME
Grantee:
Legal Services of Northern Virginia
Recipient No. 447007
Final Audit Report No. AU99-001
October 1998
EXECUTIVE SUMMARY
Legal Services of Northern Virginia's 1997 Grant Activity Report significantly overstated the number of open and closed cases worked on during the year.  The Grant Activity Report showed 4,166 closed and 4,949 open cases.
We estimate that 559 cases or 13 percent were improperly reported as closed during the year.  Some of these cases were reported closed twice in 1997 while other cases had been closed in prior years.  Cases not funded by Legal Services Corporation (LSC) were reported as were cases for individuals who were ineligible for LSC funded assistance.
The number of open cases was overstated by an estimated 3,400 plus cases.  These were primarily cases that were several years old and that were no longer being serviced.  Almost 350 of these cases were over six years old.  Many cases had been closed but the computer system that produced the statistics for the report was not updated to reflect the closure.  In addition, some cases duplicated cases that had been closed and reported to LSC in previous years.
Several other case management problems, unrelated to case statistics, also were apparent.  A significant number of case files could not be located for review.  Incorrect case numbers were assigned to many clients.  The attorneys or paralegals responsible for client cases were incorrectly identified for almost 18 percent of our sample cases.  When individuals left Legal Services of Northern Virginia employment, their cases were not promptly reassigned in the case management system to another attorney or paralegal.  As a result, the level of service provided to clients could have been adversely affected.
Management has initiated actions to improve the reporting of case statistics.  Staff responsible for client cases have been asked to validate the cases they are working on.  New instructions that improve controls over case openings and closures have been issued.  These are good first steps, however more needs to be done if reliable statistics are to be provided to LSC.   On page 11 we make recommendations for further corrective actions.
Our work also disclosed some relatively minor problems in the time keeping system but did not find evidence that prohibitions and  restrictions on class action suits, alien cases, evictions, and prisoner cases were being violated.  We did find, however, that eligibility determinations for some individuals were not fully documented.  On page 12 we make recommendations to correct the time keeping and documentation problems.
BACKGROUND
Legal Services of Northern Virginia, Incorporated (LSNV) became a regional program in 1980 when independent legal aid societies in Arlington, Fairfax, Loudoun, and Prince William counties and the city of Alexandria merged into a single organization.  In 1997 LSNV received about $2.6 million in funding to carry out its programs.  LSC provided about $462,000 or 17.6 percent of LSNV's funding.  The remainder came from state, local, and private sources.
LSNV has a main office in Falls Church, Virginia, and four branch offices spread through its service area.  The offices are staffed with 26 attorneys, 16 paralegals, and 18 support staff.  In addition, about 600 pro bono attorneys, paralegals, and law students represent clients, conduct clinics, and provide advice and counsel to clients.
LSNV prepares and submits an annual Grant Activity Report (GAR) to LSC on key aspects of its program including the number of open and closed cases, types of cases handled and the reasons for closing cases.  For calendar year 1997, LSNV  reported that it closed 4,166 cases and had 4,949 open at year end.  LSNV tracks client cases primarily through manual, paper case files and an automated system named CHARM. This system includes histories on over 9,100 active cases (those either opened or closed during 1997) and about 34,000 inactive cases (those closed prior to 1997).  The active CHARM data base is used to prepare the GAR.
OBJECTIVES, SCOPE AND METHODOLOGY
The primary objectives of this audit were to determine whether LSNV:  (1) provided LSC accurate case statistical data in its 1997 GAR,  (2) accurately recorded attorney and paralegal time as required by LSC regulation (45 CFR 1635), and (3) refrained from engaging in selected  prohibited and restricted activities involving class action law suits, representing aliens, eviction cases, and prisoner cases as required by LSC regulations (45 CFR parts 1617, 1626, 1633, and 1637).
Office of Inspector General (OIG) staff performed the audit from April 20 through May 28,1998 at LSNV's main office in Falls Church and its largest branch office in Fairfax, Virginia.  We reviewed LSNV's 1996 and 1997 proposals submitted in the grant competition process, GARs for 1995, 1996, and 1997, Program Integrity Certification for 1997; various automated reports from the CHARM system, and selected time keeping reports.  LSNV's Executive Director, Deputy Executive Director, managing attorneys, staff attorneys, paralegals, information system specialists, and support staff were interviewed.  A random sample of open and closed files was selected and reviewed in detail.
We performed the audit in accordance with Government Auditing Standards (1994 revision) established by the Comptroller General of the United States and under authority of the Inspector General Act of 1978, as amended and Public Law 105-119, incorporating by reference Public Law 104-134 §509(g).  The OIG discussed the audit results and proposed recommendations with LSNV's Executive Director and his staff.
RESULTS OF AUDIT
CASE MANAGEMENT REPORTING
LSNV inaccurately reported, in the Grant Activity Report (GAR), the number of cases closed during calendar year 1997 and the cases remaining open at year-end.  Generally, the number of cases was overstated, that is more cases were reported as open and closed than actually were open and closed.  In addition there were numerous errors in the CHARM database that tracks LSNV's cases.  These problems occurred and were not detected because controls over the intake and processing of client data were inadequate.
LSNV management has recognized that improvements are needed in the reliability of client data and has started corrective action.  However, more needs to be done.  On page 11 we make recommendations that will help ensure future GARs are accurate.
Case Management Reporting Requirements
LSC requires recipients to submit an annual GAR summarizing the previous year's activity.  The report contains statistical data on open and closed cases and provides LSC and other interested parties information on the extent and types of work performed by legal services programs.  This information includes total number of cases worked on, types of legal issues handled, number of open and closed cases and the reasons cases are closed.  The report also includes information on Private Attorney Involvement (PAI) cases.  LSNV's 1997 GAR provided the following information.
Type ofLegal ProblemClosedCasesOpenCases
Consumer/Finance7641,075
Education2537
Employment349120
Family1,4091,527
Juvenile413
Health126153
Housing663677
Income Maintenance558836
Individual Rights1816
Miscellaneous250495
TOTAL4,1664,949
LSC uses the information that recipients provide to report to Congress on the Corporation's annual activities, and publishes the information in an annual "Fact Book."  LSC's Performance Plan, prepared in accordance with the Government Performance and Results Act, uses closed cases as a key measure of the Corporation's effectiveness.  Case statistical data is also used to evaluate grantees as part of the competition process.
Closed Cases
The number of closed cases LSNV reported for 1997 was overstated by about 559 cases or 13 percent.  Additional overstatements occurred but because records were lacking we could not estimate the number.  The overstatement was attributable to:  (1) double counting of PAI cases, and reporting of (2) cases closed in previous years, (3) cases not funded by LSC, and (4) ineligible clients.
Some PAI closed cases were counted twice.  When LSNV referred a client to a private attorney after LSNV staff worked on the case, it closed the case in the CHARM system.  The case was again closed when the private attorney provided documentation that the client had been served and no further action would be taken on the case.  For 1997, LSNV overstated closed PAI cases by 170.
Cases closed or that should have been closed in previous years were reported as closed in 1997.  LSNV reported 389 cases for advice and counsel or other brief services that were provided in prior years and which were closed or should have been closed in those years.  These cases were not part of LSNV's 1997 workload and should not have been reported as closed for the year.
Cases not funded by LSC were reported  as closed.  LSC policy requires the reporting of cases that are fully or partially funded by LSC.  LSNV reported all cases closed during the year to LSC, even though LSC provided only about 18 percent of LSNV's funding.   We could not estimate the number of cases reported for non-LSC funded clients because LSNV did not distinguish between LSC and non-LSC clients in the CHARM data base.
Grantee Comment. LSNV's comments stated that the only PAI cases counted twice were those that were worked on by LSNV staff prior to referral to the PAI attorney. There were 170 such cases. LSNV's comments also stated that the program tracks clients by LSC eligibility categories and that more than 80 percent of the clients served were eligible under LSC guidelines.  Unless otherwise directed, LSNV planned to continue reporting all cases, regardless of funding source.
OIG Response. We modified the report to show that 170 PAI cases were counted twice.  Eligibility is not the issue with respect to reporting closed cases.  LSC guidelines state that only cases funded, fully or partially, with LSC funds should be reported.  LSNV did not comply with this requirement. The LSNV response indicated that  20 percent of its cases are not eligible for LSC funding.  Therefore, at the very least, they should not have been reported.
Cases were opened and later closed for ineligible clients.  Individuals were accepted as clients and case numbers assigned at the intake point, prior to the eligibility determination.  In some cases where the individual was later found to be ineligible, the case was closed and reported to LSC.  We were unable to estimate the over reporting of such cases because data was not available.
Open Cases
The preceding data indicates a significant problem with reporting closed cases.  Another problem was the overstatement of the number of cases in the file of open cases.  This is important because the open cases are eventually closed and reported to LSC.  If the number of open cases is incorrect the number of reported closed cases eventually will also be incorrect.
The CHARM system included 4,771 open cases for 1997 (this number is 178 less than the number reported to LSC).  We estimated that this number is overstated by at least 3,432 cases or 72 percent.  Many of these cases were old, were no longer being serviced and should have been closed in prior years.  Other cases duplicated cases that had been closed and reported to LSC in previous years.  Some open cases had a closing memorandum in the paper file but had  not been closed in the CHARM data base.  The following chart shows the age of the LSNV reported open cases.
YEAROPENEDNUMBEROF CASES
19971,277
1996692
19951,116
1994477
1993482
1992380
1991150
199092
1989 & Prior105
TOTAL4,771
Of the 4,771 open cases, 2,802 were opened prior to 1996 and most likely should have been closed.  The vast majority of LSNV cases are for counsel and advice or other brief services and should be closed shortly after they are opened.  In addition to the age of the cases, our review of sample cases indicated that 32 percent of the open cases had a closure memorandum in the file and should have been closed.  Applying this percentage to the 1,969 cases opened in 1997 and 1996, we estimated that another 630 cases should be closed.  In total, we estimated that about 3,432 (2802 + 630) of the open cases should be closed in the case management system
Although the cases should be closed in the case management system, they should not be reported to LSC.  Many have already been reported.  The others are old cases that have not been serviced for some length of time.  Therefore, it would be inappropriate to report them as a reflection of LSNV's current workload.
We recognize that LSNV may provide service on a small number of cases over several years duration.  However, these cases should be the exception and they could not  account for a significant part of the older open cases.  This is especially true because a large part of LSNV's cases are for counsel and advice or brief services which by definition should not extend for a long period of time.
Grantee Comment.  LSNV management acknowledged deficiencies in its case management statistics and stated that efforts were underway to correct the problems.  LSNV maintained that, based on the data in the report, it had been undercounting cases by an average of 380 cases per year.  This calculation was based on the draft audit report statement that "... about 3,435 open cases should be closed."
OIG Response.  LSNV apparently assumed that these open cases were valid cases that had not been closed.  This is not correct.  Many of the 3,435 reported open cases had previously been closed and reported to LSC and the case management system did not reflect the closure.
OTHER CASE MANAGEMENT ISSUES
Three other problems concerning LSNV's case management system surfaced during our review.  Specifically, (1) files could not be located on a timely basis, (2) case numbers were incorrect for many clients, and (3) the staff members responsible for client cases were incorrectly identified in the CHARM system.
Case files were not readily available.  LSNV could not locate 21 files from our sample of 90 files.  The files were not found during a four week period despite an intense search by LSNV staff.
Incorrect case numbers were assigned to many clients' cases.  Case numbers were incorrect for 29 of 90 sampled cases.  The problem occurred because the case numbering system was inadequate.  Case numbers were assigned based on the first letter of the client's first name, the first two letters of the last name, and the intake date.  Given the number of letters and digits involved the system was inherently vulnerable to mistakes, as indicated by the 32 percent error rate.
The attorney or paralegal responsible for client cases was misidentified in 16 of the 90 sample cases.  Either the individual recorded in CHARM as assigned  to a client's case was not working with the client or the system recorded the case as unassigned to any staff member.  A related problem was delays in reassigning cases when staff left LSNV's employment.  Some cases were not reassigned in the case management system until months after the departure of the assigned attorney.  In one instance, a client's case was not assigned to another attorney for almost six months following the departure of an attorney.  The mistake was found when the client eventually came into the office to inquire about the case.  However, a critical filing date was missed and the client received reduced Social Security benefits.
Grantee Comment. LSNV acknowledged problems in promptly getting case data changes and updates into the case management system.  LSNV asserted that no malpractice occurred on a scale suggested by the report and pointed out that no malpractice suits had been brought against the program.  LSNV disputed the one example in the report and stated that the benefits lost were not the result of LSNV negligence.
OIG Response.  Sixteen cases out of a sample of 90 cases (18 percent) were assigned an unidentified or misidentified attorney or paralegal.  The facts in the case were verified by the client and managing attorney.  In addition, a substantial number of cases were still listed in the case management system under the name of the attorney who was no longer employed by LSNV.  We also obtained an internal LSNV document that stated the program had hundreds of open cases that did not have a current LSNV attorney or paralegal assigned.
The above three problems are not simply record keeping deficiencies.  They could directly affect the quality of service LSNV provides to clients.  A program such as LSNV that services thousands of clients per year, cannot effectively manage its cases without a reliable automated case management system.  The program simply could not keep track of its large number of cases and clients, nor could it effectively check for potential conflicts, without an automated system.  An automated system, moreover, is not useful unless the data is correct and up-to-date.  LSNV's automated system is deficient on both counts.
MANUAL AND AUTOMATED SYSTEMS DEFICIENCIES CAUSED CASE MANAGEMENT PROBLEMS
LSNV's manual and automated systems were the principal cause of  inaccuracies in the reported case management statistics and the other case management problems.  The CHARM system at LSNV's main office was not electronically linked with all branch offices.  This resulted in errors in data and delays in entering data into CHARM.  Data was handled manually several times which inherently increased the risk that errors would be made.  For example, a client made an appointment to see an attorney at a branch office by telephoning the main office.  Because the two offices were not electronically linked, the appointment data was not promptly transmitted to the branch office.  The client kept the appointment and a second case number was assigned because the original case number had not been received from the main office.  When this data was entered into CHARM, the same case was in the system twice but only one entry would be closed when action on the case was completed.
Management controls over CHARM need to be improved.  The case numbering system was complicated  and allowed duplicate cases to enter the system as well as incorrect case numbers.  The annual case statistics reported in the GAR were not validated and approved by LSNV management.  LSNV did not have a regular, systematic process for validating cases in the CHARM data base and purging invalid cases.  Management did not review the CHARM data on open and closed cases to ensure that it was reasonably accurate. Considering the overall lack of system controls, such reviews would help detect errors that could be promptly corrected to make system data more reliable.
LSNV Actions to Improve Case Reporting
During our review, LSNV management took action to correct the CHARM data base and to improve the accuracy of case statistics reporting.  Lists of open cases from CHARM  were circulated to case handlers for review, validation and corrective action.  The primary thrust of this effort was to close as many cases as possible.  LSNV management also issued an instruction, effective May 1, 1998, establishing procedures covering the closing of cases and establishing quality control checks to improve the integrity and reliability of case and client information in CHARM.  These procedures emphasized the importance of promptly closing cases and stated that closures must be communicated to clients and entered into CHARM.  The instruction also required advocates and supervisors to review cases in CHARM each quarter.
Conclusions
The data that LSNV reported for open and closed cases for 1997 in the GAR was significantly inaccurate.  The problems were caused by deficiencies in LSNV's manual processes and the automated CHARM system.  LSNV has recognized the need to improve reporting and started corrective actions.  However, much more needs to be done.  Care must be taken to ensure that the current initiatives continue.  Better management controls over the intake, processing and reporting of client cases need to be established.  The automated case management data base needs to be corrected and accurately maintained to ensure the accuracy of future GARs.  Management controls over the intake process need to be established so that cases are not opened for ineligible individuals.  All branch offices need to be electronically linked with the computer system in the main office.  A better case numbering system needs to be established and controls provided to guard against duplicate cases entering the system.  Most important, LSNV management must provide oversight and supervisory review to ensure that accurate case statistics are maintained and reported to LSC.
Recommendations
We recommend that LSNV:
Validate the data in the current case management system data base.
Establish procedures for validating  the accuracy of the data base by circulating to managing attorneys and staff, at least quarterly, case management system reports on open and closed cases so that errors may be corrected.
Validate the accuracy of future GAR reports before submitting them to LSC.
Establish procedures to promptly transfer cases in the case management system when attorneys leave LSNV.
Establish procedures that simplify case numbering.
Establish procedures, manual and automated, to guard against the same case being entered more than once into the case management system.
Link the branch offices and main office computer system with the objective of providing case handlers "real-time" access to client information by 1999.
LSNV reported taking actions that, generally, would meet the intent of the recommendations.  The recommendations will remain open until the corrective actions have been completed.
TIME KEEPING SYSTEM
LSNV's time keeping system did not comply fully with LSC's requirements established in 45 CFR 1635, which required that attorneys and paralegals account for all the time for which they are paid.  LSNV's time keeping system did not account  for all time for  which the attorneys and paralegals were paid.  We compared nine employees' payroll records and time keeping records for one month in 1997 and three months in 1998.  The payroll records showed 362 more hours worked than corresponding timekeeping records.
Recommendation
We recommend that the LSNV:
Establish procedures for reviewing timekeeping records to ensure they accurately reflect the hours for which employees are paid.
Grantee Comment. LSNV did not respond to this recommendation.  The recommendation will remain open until corrective action is completed.  Also, LSNV took exception to an interpretation relating to holiday and leave time.
OIG Response. We recognize that a strict reading of regulation 1635 on time keeping could lead to the conclusion that it is not necessary to account for leave and holiday time.  We modified the report to delete the reference to leave and holiday time and eliminated the corresponding recommendation.  We will address the issue with LSC management.
PROHIBITED AND RESTRICTED ACTIVITIES
Public Law 104-134, incorporated by reference in Public Law 105-119, imposed restrictions and prohibitions on the types of services LSC grantees may provide to clients.  The law, among other restrictions, precludes grantees from representing clients:  (1) in  class action suits, (2) in certain prisoner litigation, (3) in some eviction cases involving illegal drugs, and (4) who are illegal aliens (with some limited exceptions).
LSNV has procedures implementing the LSC regulation and our review of LSNV records did not disclose violations of the above restrictions and prohibitions.  However, the procedures covering alien representation, which require case handlers to determine eligibility, were not always followed.  A review of 65 case files disclosed that 10 files did not include a signed citizen attestation form or alien eligibility documentation.  Because this information was missing, LSNV has no documented assurance that these 10 clients were eligible for assistance.
Recommendation
We recommend that LSNV:
Remind case handlers, in writing, that the procedures for documenting client eligibility must be consistently followed.
Grantee Comments. LSNV's comments agreed with the findings on prohibited and restricted activities.  The comments indicated that corrective actions were underway. The recommendation will remain open until the action has been completed.
OIG Response. LSNV's comments were responsive to the report and recommendations.
Appendix: Grantee Response | Other Reports